<html>
<title> - THE STATUS OF DROUGHT CONDITIONS THROUGHOUT THE WESTERN UNITED STATES AND ACTIONS STATES AND OTHERS ARE TAKING TO ADDRESS THEM</title>
<body><pre>[Senate Hearing 114-376]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-376

 THE STATUS OF DROUGHT CONDITIONS THROUGHOUT THE WESTERN UNITED STATES 
        AND ACTIONS STATES AND OTHERS ARE TAKING TO ADDRESS THEM

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 2, 2015
                              
                              
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              
                              
                            

                       Printed for the use of the
               Committee on Energy and Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
         
         
                               _____________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
95-280                          WASHINGTON : 2017                      
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ef9eef1defdebedeaf6fbf2eeb0fdf1f3b0">[email&#160;protected]</a>  



              
              COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Chris Kearney, Budget Analyst and Senior Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Melanie Stansbury, Democratic Professional Staff Member
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Connor, Hon. Michael, Deputy Secretary, U.S. Department of the 
  Interior.......................................................     5
Buschatzke, Thomas, Director, Arizona Department of Water 
  Resources......................................................    16
Loranger, Tom, Water Resources Program Manager, Washington State 
  Department of Ecology..........................................    23
Ogsbury, James, Executive Director, Western Governors' 
  Association....................................................    31
Michael, Cannon, President, Bowles Farm, on behalf of the Family 
  Farm Alliance..................................................    39
Cody, Betsy, Natural Resources Policy Specialist, Congressional 
  Research Service...............................................    89

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

(The) 21st Century Pipe Coalition:
    Statement for the Record.....................................   218
Buschatzke, Thomas:
    Opening Statement............................................    16
    Written Testimony............................................    18
    Responses to Questions for the Record........................   158
Cantwell, Hon. Maria:
    Opening Statement............................................     3
City of Sacramento (California):
    Letter for the Record........................................   220
Cody, Betsy:
    Opening Statement............................................    89
    Written Testimony............................................    91
    Responses to Questions for the Record........................   204
Colorado River Board of California:
    Statement for the Record.....................................   222
Colorado River Indian Tribes:
    Statement for the Record.....................................   225
Connor, Hon. Michael:
    Opening Statement............................................     5
    Written Testimony............................................     8
    Responses to Questions for the Record........................   141
Feinstein, Hon. Dianne:
    Letter for the Record........................................   228
Garamendi, Hon. John:
    Statement for the Record.....................................   267
Loranger, Tom:
    Opening Statement............................................    23
    Written Testimony............................................    25
Michael, Cannon:
    Opening Statement............................................    39
    Written Testimony............................................    41
    Responses to Questions for the Record........................   181
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Water Resources Association:
    Statement for the Record.....................................   279
(The) Nature Conservancy:
    Statement for the Record.....................................   286
North Bay Water Reuse Authority:
    Statement for the Record.....................................   294
Ogsbury, James:
    Opening Statement............................................    31
    Written Testimony............................................    33
    Response to Question from Senator Gardner....................   124
    Responses to Questions for the Record........................   162
Property and Environment Research Center:
    Statement for the Record.....................................   320
WateReuse:
    Letter for the Record........................................   327
Western Growers:
    Statement for the Record.....................................   333
Western Recycled Water Coalition:
    Statement for the Record.....................................   349

 
 THE STATUS OF DROUGHT CONDITIONS THROUGHOUT THE WESTERN UNITED STATES 
        AND ACTIONS STATES AND OTHERS ARE TAKING TO ADDRESS THEM

                              ----------                              


                         TUESDAY, JUNE 2, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. We are calling to order the 
Full Committee on Energy. Welcome to everyone this morning.
    We are meeting today to discuss drought conditions. I do 
not know about the rest of you, but I was completely dumped on 
yesterday. [Laughter.]
    The Chairman. I had never seen it rain so hard. I was 
thinking about drought as we were battling the wet weather 
here, but truly the drought conditions that are facing the 
Western United States have garnered the attention of so many of 
us.
    Much of the West has been in varying degrees of drought for 
the past 15 years now. According to a survey released last week 
by the U.S. Drought Monitor, approximately 57 percent of the 
West is now experiencing moderate to exceptional drought. All 
or parts of nine states in the worst shape range from severe to 
exceptional drought, and the impacts are significant.
    California, in the midst of its fourth year of severe 
drought, has for the first time imposed mandatory 25 percent 
reductions on water use by residents and businesses.
    Many farmers in California continue to face unprecedented 
reductions in water delivery by the Bureau of Reclamation and 
the states which are often their primary sources of water. 
These farmers have contracts with Reclamation and the state, 
but today, in the absence of water their livelihoods are being 
dramatically impacted. Drought is leaving behind hard decisions 
for these folks.
    Decisions where they are saying, you know, which fields do 
they lay fallow? Do they change certain crops that they plant? 
Do they plow under crops such as fruit trees?
    I was out in Fresno several months ago and saw whole fields 
of beautiful citrus trees, healthy citrus trees, that were 
literally bulldozed over because there was no water. In certain 
cases the drought has led farmers to go out of business 
entirely. Of course the impacts are not just on our farmers but 
with some communities no longer having running water and 
individuals in farming communities losing jobs.
    There is much discussion regarding what drives water 
release decisions in the state.
    During the course of California state's four year drought, 
for example, many have said that the large amounts of water 
that had been released at various times and in various forms or 
held back from release had been done to ensure protection of 
fish at the expense of cities, towns and farmers.
    Indeed we have heard repeatedly that farmers in the state 
use 80 percent of the state's water. So the question needs to 
be asked is that accurate? My understanding is that the 
California Department of Water Resources has reported that 
state-wide water use looks more like this. Ten percent urban 
use, forty-one percent agricultural use, and a majority of 49 
percent use for environmental management, wetlands, delta 
outflow, wild and scenic designation and in-stream flow 
requirements.
    One of the very real questions that we should discuss 
regarding California's circumstances and potentially elsewhere 
is to what extent is the very important balance between water 
for fish under State and Federal law being given equal, legal 
support for that of water delivery to meet the needs of people 
in cities, towns and farms? And if the balance is not equal, 
then why not? Are there regulatory imbalances? Can the Federal 
Government be helpful in addressing imbalances?
    Elsewhere in the West the situation, while perhaps not 
quite as dire, is trending that way. In Washington State the 
Governor declared a statewide drought emergency on May 15th. In 
Oregon the Governor has declared a state of drought emergency 
in seven counties with another eight requesting designation.
    Across the Colorado River Basin, where 40 million residents 
in seven states rely on water from Lake Powell and Lake Mead on 
the Colorado River for residential, industrial and agricultural 
needs, the drought in varying degrees has been a fact of life 
for now some 15 years. The strains are starting to show, most 
notably at Lake Mead where lake levels have fallen 130 feet in 
the last 15 years. At the current rate in the next few years, 
users in Arizona and elsewhere could see reductions in their 
state allocations under the Colorado River Compact. Hydropower 
operations at Lake Mead and Lake Powell could also be curtailed 
in coming years.
    As a brief aside, I have mentioned in this Committee and in 
others that potential hydropower impacts remind us of the very 
strong nexus between energy and water. The strain that drought 
puts on that nexus is something that I am watching and am very 
concerned about.
    In the face of the challenges stemming from drought water 
users, Federal and State officials and others are working to 
ensure delivery of water where it is needed. These actions 
include State and Federal officials working together to 
facilitate water transfers and farmers agreeing to delay the 
date of deliveries of water to benefit species. Of course, many 
farmers have turned to groundwater consumption to meet their 
needs.
    So there are some hard questions, I think, that need to be 
asked here. Are current actions sustainable in the face of 
multiyear droughts? Are all affected parties giving sufficient 
attention to long term planning and related actions? What is 
the Federal Government's most appropriate role in addressing 
longer term solutions given tight budgets and that much of what 
happens with water in the West is actually managed by the 
states? Are there innovative efforts on the ground that should 
be replicated? Also what new ideas for water storage, 
conservation and use might we consider?
    We have an impressive panel of witnesses here today. In 
particular I look forward to hearing from those who are on the 
ground on how they are meeting the challenges. I look forward 
to everyone's thoughts on how we can be helpful here.
    I will turn to my colleague, Senator Cantwell and note to 
the Committee that we have a vote scheduled at 10:30 so we will 
keep the hearing going and just ask members to go vote and then 
come back.
    Senator Cantwell.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you.
    I would like to thank Chairwoman Murkowski for scheduling 
this important hearing. As you mentioned, in my state the 
Governor has declared a drought emergency, as has been done in 
11 other states. I hope that we can use this hearing to better 
understand the magnitude of the impact of these droughts across 
many of our Western states.
    I want to emphasize too, that we hope to have a robust 
discussion today about solutions. Things that we can do and 
things that we can plan for in the future. What is working, 
what is not working? What are the Federal Government actions 
that need to be addressed to face drought issues over the long 
term? And if drought conditions are likely to become the new 
normal, what do we need to do to usher in a new era of 
solutions?
    This year many states are experiencing the warmest winter 
on record. In my state mountain snowpacks, which keeps our 
rivers flowing in the spring and summer, are now at nine 
percent of normal levels, and 11 snow sites monitored by the 
Department of Agriculture were snow free this year for the 
first time ever.
    For example, Hurricane Ridge, which is one of the most 
visited parts of our state in Olympic National Park, is 
normally covered in feet of snow at this time of year but is 
completely snow free this year. It is actually a pretty 
startling sight to many Washingtonians. As a result of such low 
snow pack, 78 percent of the state's streams are running below 
normal and runoff is projected to be the lowest it has been in 
64 years.
    On May 15th the Governor declared a statewide drought 
emergency and has been working with communities to mitigate the 
impacts, particularly in rural communities which have been hard 
hit. For example, in the Yakima Basin which is the state's most 
productive agricultural region, irrigation districts are 
rationing water and farmers are facing significant cuts. The 
Washington Department of Agriculture predicts the crop loss 
could be as much as $1.2 billion this year across the state.
    So I want to make sure that our Federal agencies are 
working hand-in-hand with the states to provide relief and 
assistance and to try to address this issue moving forward.
    Meanwhile our communities are bracing for a severe fire 
season which also will provide many challenges.
    So it is very important to me that we look at responding to 
the long term changes that are before us, and the ways that we 
do business in managing water in the midst of this major crisis 
and that we think about the paradigm shift that is in front of 
us as we face these warmer seasons.
    We need to develop 21st century strategies for water 
management that not only respond to the drought conditions of 
today but prepare us for an uncertain future. This requires new 
ways of thinking and collaboration which means exploring all 
options, not just incremental change at this point in time.
    I think the Yakima Basin project in my state is an example 
of long term water basin planning which has not been done in 
the past in which interest groups from farmers to fishermen to 
tribes to environmentalists are working together to try to 
implement the best plan over the long term. I think that there 
are four areas that we should consider moving forward.
    One, we need more collaborative water sharing agreements. 
Just like with the Yakima Basin this empowers communities to 
take action at a local level and be part of crafting solutions.
    Second, we need to be more flexible in drought operations. 
This includes the way we build, manage and finance storage and 
other infrastructure and how we support those efforts at the 
local level. I know a lot of people do not even want to talk 
about storage because they start thinking about how long it 
takes to get it permitted and authorized. I am not talking 
about rolling back environmental laws, but I think we have to 
think creatively about how we build storage now. We need to, 
even if it is small scale storage like what is being done with 
the Yakima Basin project.
    We need to do a better job of leveraging science and 
technology. I am amazed at what Israel has done as a country 
with such little water resources and yet continue to be such 
agricultural producers. So we need to make sure that we are 
deploying new technologies that help improve efficiencies in 
everything from our hydroelectric dams to agriculture to our 
homes.
    Finally, we need to do a better job of planning for the 
future instead of just simply reacting.
    I hope, Madam Chair, that we can, in the future, get some 
of our climate scientists from Oak Ridge here. Senator 
Alexander is a member of our Committee and they have an 
incredible science on what will be impacting us as a nation. 
They have the modeling. I think we should look at what these 
new normal conditions mean to us as a nation because, I think, 
we can see what the economic impact is going to be from an 
agricultural perspective. I think it is going to be great. So 
we need to do a better job planning for the future. We need to 
do all that we can now at the Federal level to be flexible in 
our response; to make sure we are making the right kind of 
investments to help ensure that our states can deal with these 
droughts and that our communities will be better protected in 
the future.
    Once again, thank you for your leadership in having this 
hearing. I look forward to hearing from the witnesses including 
Tom Loranger, who is the Water Resources Manager from the 
Department of Ecology in Washington State. I look forward to 
hearing from all of the witnesses today on this important 
topic.
    The Chairman. Thank you, Senator Cantwell.
    With this we will begin hearing from our witnesses this 
morning.
    Again, a very distinguished panel, thank you, all of you, 
for being here.
    We will begin with the Honorable Michael Connor, who is the 
Deputy Secretary for the Department of the Interior.
    He will be followed by Mr. Thomas Buschatzke, who is the 
Director of the Water Planning Division for the Arizona 
Department of Water Resources. Thank you for coming from the 
West to be here.
    Also from the West, from Washington, we have Mr. Tom 
Loranger, who is the Water Resources Program Manager for 
Washington State Department of Ecology.
    He will be followed by Mr. James Ogsbury, who is the 
Executive Director for the Western Governors' Association. He 
will be giving us the perspective from the Western states.
    Mr. Cannon Michael is the President of Bowles Farm and he 
is testifying on behalf of the Family Farm Alliance, welcome to 
the Committee.
    Wrapping up the panel is Ms. Betsy Cody, who is a Natural 
Resources Policy Specialist at CRS.
    So we welcome all of you.
    With that, Mr. Connor, we will lead off with you. When the 
vote is called, you will see various members of the Committee 
leaving, but I would ask that we just move through the 
testimony this morning. I know that you have a hard stop at 
noon, so we want to try to accommodate that. Please limit your 
oral testimony to five minutes, and your full written statement 
will be incorporated as part of the record.
    Mr. Connor, welcome.

   STATEMENT OF HON. MICHAEL CONNOR, DEPUTY SECRETARY, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Connor. Thank you, Chairman Murkowski, Ranking Member 
Cantwell, members of the Committee. For the record I am Mike 
Connor, Deputy Secretary at the Department of the Interior. I 
want to thank you for the opportunity to testify on the subject 
of drought and the actions the Department and its Bureaus are 
taking to address the serious water resource issues affecting 
much of the West.
    I will briefly summarize my very lengthy written testimony.
    The Department is acutely aware of the drought-related 
challenges and worries confronting families, farmers, tribes, 
businesses, cities and the environment throughout the West. We 
are committed to doing all we can to address the situation. We 
understand the implications for Western communities and the 
need for continuous action to build long-term water supply 
reliability and resiliency. Given the current and future 
impacts associated with climate change and other stressors we 
have no choice but to adjust and adapt.
    To that end, the Department is taking a multifaceted 
approach and marshalling every resource at its disposal to 
assist Western communities impacted by drought. The Department 
has instituted a multipronged strategy that encompasses short-, 
medium- and long-term dimensions. Given the significant 
infrastructure owned and operated by the Bureau of Reclamation, 
an urgent response to drought requires a focus on immediate 
day-to-day operations.
    Reclamation and its partners are taking any and all actions 
to more effectively manage water and maximize supplies for 
human use while maintaining environmental conditions necessary 
to protect fish and wildlife, as well as protect the interests 
of other water users.
    This year, the fourth year of a historic drought in 
California, litigation has been minimal while Federal agencies, 
State agencies, water users and non-governmental interests have 
worked together on drought strategies and other agreements to 
share limited water supplies. The collaboration and cooperation 
has been as historic as the drought itself.
    Beyond addressing the current crisis we are also making a 
strategic investment to stretch limited supplies and minimize 
conflicts over the next several years. As an illustration, just 
two weeks ago Secretary Jewell traveled to Los Angeles where 
she announced the total of $49.5 million in grant assistance to 
co-fund a host of locally driven, water conservation projects 
under the Water Smart program. These grants join hundreds of 
millions of dollars to date invested by this Administration and 
supported by Congress to help families across the West 
confronted by the historic drought.
    Finally, we continue to assess and plan for long-term 
actions required to improve our understanding of water 
resources as well as to secure agreements and infrastructure 
and technology investments needed to address unsustainable 
water uses that are the source of significant conflict today 
and likely to get worse in the future.
    The Department views this as an all hands effort with 
actions occurring across the Department. The National Park 
Service, Bureau of Land Management, Fish and Wildlife Service, 
Bureau of Indian Affairs and Geological Survey are all working 
aggressively with our partners.
    Our work is dovetailing with that of other agencies like 
the Department of Agriculture, as part of the Administration-
wide, National Drought Resilience Partnership, a forum to align 
Federal drought policies across the government and help 
communities manage the impact of drought.
    These efforts rely, in no small measure, on the cooperation 
of a broad array of stakeholders, Governors, tribal leaders, 
state and local water authorities, conservationists, farmers, 
ranchers and so many others. From California Central Valley to 
the Yakima River Basin, from grazing lands and timber lands to 
park lands and Indian country, collaboration is enabling 
flexibility to reduce water consumption, prevent water loss, 
preserve endangered species, protect recreational assets and 
provide irrigation to water starved farm lands. Our experience 
has taught us, however, that to be successful ultimately, we 
must be dedicated beyond near-term results and commit for the 
long-term.
    Take the Colorado River Basin as an example. That Basin has 
been the beneficiary of collaborative efficiency measures for 
the last 15 years. Most recently though the intentionally 
created surplus program developed in 2007 with the seven basin 
states as well as agreements forged in 2010 and 2012 with the 
Mexican Government, through those efforts approximately one 
million acre feet of water has been conserved, effectively 
delaying the time at which it will reach critical levels in 
Lake Mead.
    Unfortunately the drought continues to outpace our 
conservation efforts and potential shortages in the lower basin 
are now possible in 2016 and 2017, underscoring the need for 
continued collaboration and extraordinary operational measures 
into the future.
    Successfully confronting the challenges of drought will 
take considerable investment and ongoing commitment. The 
Department and this Administration will not lose focus on our 
duty to help Western communities dealing with drought. We know 
that neither the Federal Government nor the communities that we 
serve can simply build, conserve, recycle or regulate our way 
out of these challenges or rely on only one option to meet the 
challenges that we face. Rather, we understand the need to take 
a multifaceted, long-term approach to diversifying our Western 
water portfolio in working to achieve lasting results.
    Thank you for the opportunity. I look forward to your 
questions.
    [The prepared statement of Mr. Connor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Deputy Secretary.
    Mr. Buschatzke?

STATEMENT OF THOMAS BUSCHATZKE, DIRECTOR, ARIZONA DEPARTMENT OF 
                        WATER RESOURCES

    Mr. Buschatzke. Good morning, Chairman Murkowski, Ranking 
Member Cantwell and members of the Committee. I'm Tom 
Buschatzke, the Director of the Arizona Department of Water 
Resources. Thank you for providing me the opportunity to 
present Arizona's testimony regarding drought in the West, its 
impact on my state, our formula for offsetting and mitigating 
drought impacts and the role of the United States.
    The arid nature of Arizona constantly reminds us of the 
value of every drop of water we have. Arizona has a diverse 
water supply portfolio. We use about seven million acre feet of 
water per year and the sources are 40 percent from the Colorado 
River, 40 percent from groundwater, 17 percent from instate 
surface water sources and three percent from reuse of reclaimed 
water.
    Arizona has created institutions that provide certainty for 
our water users. It took political capital, compromise and hard 
choices over many decades to create the water delivery 
projects, laws, regulations and in trust state and interstate 
agreements that effectively manage our water. The result was 
worth the effort. Arizonans enjoy a high quality of life and a 
vibrant economy and will continue to do so even in the face of 
this drought.
    Despite Arizona's successes water supply uncertainty and 
vulnerability remains. Managing that uncertainty and 
eliminating vulnerability is a part of Arizona's history and 
continues to be a key strategic goal for our state.
    Drought on the Colorado River is at the top of our list of 
challenges. Arizona will lose 320,000 of its 2.8 million acre 
feet Colorado River allocation when a Tier One shortage is 
triggered. We will know in August 2015 if shortage will occur 
in 2016. The probability of a Tier One shortage in 2016 is 33 
percent and increases to 75 percent for 2017.
    Arizona shoulders the brunt of the shortage, about 84 
percent of the total taken by Arizona, Nevada and Mexico. If 
Lake Mead continues to decline, Arizona will take larger 
reductions while California will continue to take no shortage.
    Another challenge for Arizona and the Lower Basin is an 
issue referred to as the structural deficit. It is caused by 
the volume of water released from Lake Mead for beneficial use, 
evaporation and delivery losses exceeding the volume of water 
entering Lake Mead from Lake Powell even in a normal year. As a 
result, Lake Mead's elevation drops about 12 feet per year.
    Greater than normal Colorado River flows into Lake Mead 
help offset structural deficit impacts, but drought has reduced 
that likelihood from happening.
    Despite the impacts, uncertainties and vulnerabilities I 
have described, Arizona is not in a water crisis and is well-
situated to deal with the drought, an outcome of good planning, 
good management at the 1980 Groundwater Management Act and its 
progeny. The Groundwater Act contains carrots and sticks. It 
mandates water conservation, agricultural acreage is capped and 
new housing must have a 100-year, renewable water supply.
    Municipal providers are required to have conservation and 
drought management plans. The act incentivizes saving water. 
Underground storage programs allow water to be stored 
underground and recovered later resulting so far in the storage 
of 5.6 million acre feet and another 3.4 million acre feet by 
the Arizona Water Banking Authority which is dedicated to 
backfilling Colorado River shortages.
    The value of underground storage programs was quickly 
recognized by other states. Arizona stored 80,000 acre feet for 
California in the 1990's and another 600,000 acre feet for 
Nevada in the 2000's.
    Maintaining the resiliency Arizona enjoys today will be a 
challenge. As I conclude my remarks I wanted to address the 
potential role of the Federal Government.
    First, the Secretary of the Interior, water master in the 
Lower Basin of the Colorado River, should continue to be an 
effective partner in creating and implementing collaborative 
actions with the seven Basin states to create a sustainable 
Colorado River. However, it is imperative that any actions of 
the Secretary or the United States to aid drought stricken 
California not reduce Arizona's flexibility to manage its own 
water supplies. Arizona already takes the lion's share of 
Colorado River shortage. Federal actions that might further 
impact Arizona are not warranted and would not be equitable.
    Second, the reliability and sustainability of the river is 
critical to Arizona Indian tribes and to the United States as 
trustee for those tribes. Essential Arizona project water is 
key to existing and future tribal water right settlements in 
Arizona.
    Third, there is a need for augmenting the Colorado River 
which has been recognized in Federal legislation and 
Reclamation's 2012 Colorado River Basin Water Supply and Demand 
Study and in Arizona's Strategic Vision for Water Supply 
Sustainability.
    Last, Arizona would like to see additional opportunities 
for Federal support of programs that conserve water that will 
benefit the entire system rather than one particular user, 
especially considering how much some users, like Arizona, have 
already done.
    Thank you again for the opportunity to provide you with a 
snapshot of the Arizona experience.
    [The prepared statement of Mr. Buschatzke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. I appreciate your comments.
    Let's go to Mr. Loranger.

  STATEMENT OF TOM LORANGER, WATER RESOURCES PROGRAM MANAGER, 
             WASHINGTON STATE DEPARTMENT OF ECOLOGY

    Mr. Loranger. Madam Chair Murkowski and members of the 
Committee, thank you for the opportunity to testify today. My 
name is Tom Loranger. I'm the Water Resources Manager with the 
Washington State Department of Ecology.
    As Senator Cantwell mentioned current snow pack levels in 
Washington are nine percent of normal. This is the lowest we 
have on record. Because of the low snow pack, rivers with 
diminishing flows in irrigation districts already cutting off 
supplies to junior users, Governor Jay Inslee declared a 
drought in Washington in May. With the state's drought 
declaration relief can be provided for those experiencing 
hardship and to improve flows for fish.
    Regarding agriculture in the state, currently difficult 
decisions are being made about what crops get priority water 
and how best to save fish. As Chairman Murkowski mentioned, the 
Washington State Department of Agriculture anticipates $1.2 
billion in crop loss this year in the state. In the Yakima 
Basin, where the Bureau of Reclamation has built multiple 
storage projects, the drought means less water is available for 
junior water users. In the last two weeks we've already issued 
30 emergency drought well permits to junior users in the Roza 
Irrigation District in the Yakima Basin.
    In the Wenatchee Basin, Little Spokane Basin and other 
basins in the state, we've sent out curtailment orders already 
to junior users.
    In the Walla Walla, we are actively working with 
irrigators, tribes and other water managers to develop leases 
and provide pulse flows for struggling salmon.
    Regarding communities in the state, the largest 
municipalities, Seattle, Tacoma, Everett, have all indicated 
they will not experience water shortages this year. These 
utilities have taken proactive steps to store rainwater that 
fell in the winter time.
    However, other utilities, particularly the smaller 
community systems, may experience problems. The drought 
response funding from the legislature will allow communities to 
rehabilitate or deepen wells as needed or construct interties 
with adjacent systems like we did in the 2005 drought.
    Regarding flows for fish, in the Dungeness River on the 
Olympic Peninsula of Washington we have committed to 13 leases 
already where farmers will let 1,000 acres of farmland lie 
fallow. In return flows will get approved, particularly in that 
critical late summer period.
    We are also in the process of leasing water from the 
Kittitas Reclamation District in the Upper Yakima, very 
sensitive tribes, very important to salmon in that basin.
    Right now in the Walla Walla, water supplies and flows are 
extremely low which is impacting both irrigator's use and fish 
passage. And so currently partners are shifting flow from creek 
to creek to aid struggling salmon right now, Chinook and Bull 
Trout as well.
    A challenging time for fish and farms in Washington. Key to 
the successful implementation of emergency drought response in 
Washington is the work we have done actively developing 
collaborative partnerships in these key watersheds like the 
Yakima, like the Dungeness, like the Walla Walla, around the 
state.
    Ownerships include tribes, local governments, state 
governments, other water managers, Federal Government, so it's 
a new way of doing business where we have irrigators supporting 
flow enhancement projects for fish. We have fisheries' 
interests and tribes supporting water supply projects for out-
of-stream use of water.
    From these partnerships we've developed minimum flow 
requirements, flexible mitigation strategies and lease 
arrangements that make it easy to shift water around when we 
have to rapidly during drought.
    A few examples. In the Yakima we have developed leasing 
arrangements to share water among irrigation districts and 
provide water for stream flow while land lays fallow. In 
addition all parties, including the Yakima Tribe, have agreed 
to a flexible mitigation approach for these big, large drought 
wells that when used where we can have mitigation water, not up 
front, but later on in the season.
    The Yakima Integrated Strategy was developed working with 
all of these partners. When funded it will expand the reservoir 
capacity in the Yakima Basin, improve facility operations and 
improve fish passage and fish habitat, providing more water for 
these critical drought periods.
    In the Dungeness watershed the Dungeness Irrigator's 
Association has agreed to voluntarily reduce their water 
diversions during these drought periods and periods of low 
flow. This is remarkable given that their water rights allow 
them to take more water. These irrigators are also entering 
into lease agreements so that water can be left in the stream 
during these critical drought periods.
    In the Walla Walla, irrigators, tribes, and all levels of 
government are actively moving water around to protect the 
fishery and ensure use for irrigation. The Umatilla Tribe is 
trapping and hauling fish to cooler waters.
    Thank you.
    [The prepared statement of Mr. Loranger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Loranger.
    Mr. Ogsbury, welcome.

    STATEMENT OF JAMES OGSBURY, EXECUTIVE DIRECTOR, WESTERN 
                     GOVERNORS' ASSOCIATION

    Mr. Ogsbury. Thank you, Chairwoman Murkowski, Ranking 
Member Cantwell and members of the Committee. My name is Jim 
Ogsbury, and I am the Executive Director of the Western 
Governors' Association (WGA), an independent, non-partisan 
organization representing the Governors of 19 western states 
and three U.S. territories. It is an honor to appear before you 
today to discuss the critical issue of drought.
    Well over a year ago Nevada Governor and current Chairman 
of WGA, Brian Sandoval, announced his intention to devote his 
energies as Chairman of the WGA on the critical issue of 
drought. This announcement was applauded by the Western 
Governors because as an issue it speaks to the strengths of 
WGA.
    It is timely, it's actionable, it is bipartisan, it's a top 
priority of our Governors, and unfortunately, it's a perennial 
concern in the West. It's designed by Governor Sandoval. The 
Western Governors' Drought Forum is an effort that speaks to 
the pragmatic nature of Governors, who as Chief Executives are 
focused on practical, common sense solutions to state and 
regional challenges.
    I will not belabor the severity of the present drought or 
its impacts. You and other witnesses have established that 
case, and there has been extensive coverage of the drought's 
impacts on California where snow levels are now zero percent of 
normal and the snow pack of the Sierra Nevadas has officially 
disappeared.
    These severe conditions, however, are not limited to the 
Golden State. Washington Governor Jay Inslee, as you have 
heard, declared a state-wide drought emergency on May 15th, 
citing the fact that on the Olympic Peninsula where there 
should have been 80 inches of snow there were instead glacier 
lilies in bloom. Governor Kate Brown of Oregon, I believe, has 
declared drought emergencies now in 15 counties. Early May snow 
pack levels in the Boise River Basin of Idaho were the fourth 
lowest on record since measurements began in the 1940.
    Western Governors' have individually taken decisive actions 
to prepare for drought and manage its impacts. California 
Governor Jerry Brown issued an Executive Order on April 1st 
mandating a 25 percent reduction in municipal water use. 
Governor Inslee has spearheaded Washington State's 
participation in the Yakima Basin Integrated Water Resource 
Management Plan which will empower water users in a rich, 
agricultural area to collaboratively address the risk of 
drought to agriculture, communities and the environment.
    The Governors have also addressed drought collectively 
through the Western Governors' Drought Forum. The forum is a 
multifaceted enterprise that has organized drought workshops, 
hosted webinars, produced reports and engineered an online 
resource library for officials and water managers to share 
drought management best practices, case studies and 
innovations. WGA hosted a series of workshops throughout the 
West, each of which focused on drought's impact on a particular 
economic sector including energy, agriculture, mining, 
manufacturing and tourism.
    The lessons learned from these and other activities of the 
Drought Forum have been memorialized in an online resource 
library and will be summarized in a report that will be issued 
by the Governors later this month at their annual meeting in 
Lake Tahoe.
    In wrestling with drought Western Governors have enjoyed 
productive partnerships with the Federal Government. Western 
Governors provided critical leadership for the original 
enactment and recent reauthorization of the National Integrated 
Drought Information System, NIDIS. This has led to continuing 
work with the National Oceanic and Atmospheric Administration 
on improved coordination and dissemination of drought and 
extreme weather data and analysis to support the resource 
management decisions of states.
    Likewise, WGA supports the Cooperative Water Program and 
National Stream Flow Information Program of the U.S. Geological 
Survey as well as the snow survey activities of the Natural 
Resources Conservation Service. These programs provide valuable 
data and information to inform state water resource decisions.
    WGA recognizes the value of State/Federal partnerships. The 
collaboration of Federal and State agencies to craft a unified 
operation plan in California, for example, led to an expedited 
water transfer process among other benefits.
    Furthermore, WGA recognizes the importance of 
infrastructure investments, the value of streamlined permitting 
for infrastructure and the significance of Federal support for 
state and local watershed groups.
    The Governors deeply appreciate the attention that this 
Committee is investing in the issue of drought and look forward 
to working with you to craft solutions that both apply the 
substantial resources of the Federal Government and respect the 
authority and expertise of states to manage water within their 
boundaries.
    Thank you for the opportunity to appear here today.
    [The prepared statement of Mr. Ogsbury follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Ogsbury.
    Mr. Michael, welcome.

STATEMENT OF CANNON MICHAEL, PRESIDENT, BOWLES FARM, ON BEHALF 
                  OF THE FAMILY FARM ALLIANCE

    Mr. Michael. Well, good morning. I'd like to first of all 
thank the Committee for this opportunity to be able to present 
on this important issue of the Westwide drought and thank the 
Committee for taking the time for the attention on this matter.
    I'd like to especially thank Chairwoman Murkowski for the 
leadership role she's taken in this effort and also for her 
recent visit to California to see the conditions for herself 
firsthand and greatly appreciate your comments that you started 
with. It means a great deal that you've taken it to heart and 
learned so much.
    I would offer anyone in this room the opportunity to come 
to our farm for a visit to see conditions for yourself, 
firsthand.
    I'm here today representing the Family Farm Alliance. We 
are a grass roots organization comprised of family farmers, 
ranchers, irrigation districts and allied industry groups that 
have representation through the 16 Western states. The main 
mission of the Alliance is to provide and ensure the 
availability of reliable, affordable irrigation water supplies 
for farmers and ranchers.
    My name is Cannon Michael. I'm the sixth generation in my 
family to farm in the Central Valley. My great, great, great 
grandfather came over from Germany in the 1850's and through a 
lot of hard work became a successful cattle rancher. And we are 
still fortunate to farm some of the land that he originally 
settled on. I live on the farm with my wife and my three 
children.
    As I sit here before you I've already fallowed 25 percent 
of my ground. I am now awaiting a decision which has just come 
up in the last few days which may take that number to 80 
percent or higher.
    We mentioned regulations for fish a little bit earlier. The 
sole decision that may change my allocation and the trajectory 
of my farm this year is based on temperature modeling for fish 
only. It's been discovered there's not enough cold water 
available in storage for fish, and that may completely 
eliminate all the collaborative work that's been done to 
provide some water supply for different water users this year. 
So obviously a very disturbing time for me and my family.
    Throughout the last 15 months there's no denying, in the 
last four years there's no denying that hydrologic issues have 
been plaguing California. But in the last 15 month period 
there's also been significant rainfall events, very precious at 
the time of this critical drought. What we've seen over and 
over again is the uncaptured part of those rain events has 
flowed out, the majority of it has flowed out to the ocean and 
not been able to be captured by our water system.
    California relies on an engineered water system that moves 
water through the Sacramento-San Joaquin Delta where two-thirds 
of the water falls in the north of the state to where two-
thirds of the population is in the south part of the state. 
It's been a system that's worked for many years. Now with this 
layering of regulations that we've seen since the 1990's, we've 
seen all flexibility be taken out of the system.
    I would ask today, as the Federal Government you have the 
opportunity to ensure that regulations, when they are in place, 
are implemented with some balance and some accountability. It 
would be one thing to me if these last years of regulation and 
limitations, if we had seen some improvement in the fish 
species. But we're not seeing that. So, there needs to be a 
clear look at those regulations, and they need to have 
accountability. And they need to have balance.
    Quickly on the impact of fallowing. I want to just make the 
point very quickly. One fallowed acre has an extreme impact 
over a very large area. It's not just the income to a farmer. 
It represents loss of work to my people on the ground. If I 
don't run a tractor on that ground it means I don't buy tires. 
I don't buy parts. I don't buy fuel. All those associated 
industries that bring me those products, they also suffer.
    It then means that I don't produce an actual product off 
that ground. That product then doesn't go to a processing 
plant. It doesn't go to a supermarket. It doesn't stock those 
shelves. It doesn't come out to something else that may be 
transported across the nation or across the world.
    I then may not take any financing. It affects the banks. 
It's a large ripple effect from one acre fallowed. We have over 
800,000 acres being fallowed this year. The economic impact is 
huge.
    We've also seen food prices rise. We're taking away sources 
of healthy fresh fruits and vegetables from people that we have 
been telling that they need to eat more of those types of 
products. Ten to 15 percent may not mean a lot if you have a 
disposable income, but it sure means a heck of a lot if you're 
on a low wage or you have a difficulty providing for your own 
family. We cannot take these products away from people.
    California farmers produce food and fiber in the most 
environmentally and ethically-friendly ways in the entire 
world. We have enforceable penalties if we do not follow the 
regulations that we are underneath.
    The LA Times recently did an excellent expose on Mexico 
where we're getting more and more food and relying on them to 
provide us this food. They do not pay living wages, they do not 
have environmental standards, and they do not have enforceable 
penalties.
    I would just, I know I'm out of time, but everybody uses a 
lot of water every day. We all rely on water. So we need to 
decide where we want those products to come from. Every time 
you eat, you're consuming water. Every time you put on your 
clothes, you're consuming water.
    We are ultimate water consumers, every single day. Do we 
want water to come from places like California, water products 
to come from there or do you want them to come from other 
countries?
    We have to start figuring out solutions. We have to have 
some accountability for environmental regulations. We need 
leadership from the Federal Government. We need your help, and 
I'm asking for that today. Thank you.
    [The prepared statement of Mr. Michael follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Michael. I appreciate the 
personal touch that you have clearly given to the issue here 
this morning.
    Finally let's go to Ms. Betsy Cody, welcome to the 
Committee.

 STATEMENT OF BETSY CODY, NATURAL RESOURCES POLICY SPECIALIST, 
                 CONGRESSIONAL RESEARCH SERVICE

    Ms. Cody. Thank you.
    Chairman Murkowski, members of the Committee, thank you for 
the opportunity for CRS to testify today on Western drought 
conditions and challenges facing Western water managers.
    While my testimony includes a discussion of potential 
options to address drought challenges, CRS does not take 
positions on legislative proposals or make recommendations to 
the Congress.
    As you've heard from others today here, while more than 20 
percent of the United States is experiencing moderate to the 
exceptional drought. Much of the drought is concentrated in the 
West.
    Although there have been slight improvements in some areas, 
higher than average temperatures and lower than average 
precipitation have resulted in low record snow pack and early 
runoff in other areas. The short-term seasonal outlook is for 
these trends to continue in the far Western states, especially.
    Long-term predictions, those more than three months, are 
more difficult to make, especially on a regional basis.
    Chief among the challenges for Western states is managing 
scarce water supplies and ensuring public health and safety and 
industry and other effects, as you've heard from many of our 
panelists. States and local water entities typically lead 
efforts to prepare for a drought, and I think you've heard some 
very excellent examples of that today, due to their primary 
rule and water allocation.
    Even without drought, though, 80 percent of state water 
managers surveyed by the GAO expect water shortages within the 
next decade. Key concerns range from population growth and lack 
of information on water availability and use to potential 
impacts of climate change and effects of extreme weather events 
such as floods and droughts.
    The Bureau of Reclamation, as we've heard from Mr. Connor, 
faces similar challenges, especially for its large, multiple 
purpose projects that involve balancing multiple objectives 
across large areas. Challenges in the Colorado River Basin and 
for the Central Valley of California and to some degree the 
Columbia River Basin are prime examples. In these areas 
challenges include how to accommodate existing and new demands 
including growing populations and competing uses while also 
complying with Federal and state environmental and other laws.
    As you have heard again from Chairman Murkowski and Mr. 
Connor, Reclamation has estimated that supply shortages for the 
Colorado could be in effect as early as 2016 and 2017.
    Meanwhile Central Valley project water deliveries, we've 
also heard, have been significantly cut back affecting junior 
and senior water users, fish and wildlife resources, recreation 
and other industries.
    Smaller Reclamation projects are also challenged by drought 
and are experiencing water delivery cutbacks. Again we've heard 
more of that today. The Yakima Basin is an example and projects 
in New Mexico.
    Although there are a wide range of options for addressing 
drought, the Federal rule in implementing options is not always 
clear cut. Options often discussed can be categorized as 
follows: they're supply-driven options, they can be demand-
driven, those that involve new governance or institutional 
structures, and those that fund research, planning and 
monitoring activities that supports state and local efforts.
    All of these options have their pros and cons and involve 
tradeoffs. For example, developing or augmenting supplies 
through construction of surface and groundwater storage 
projects may provide more water but opportunities for supply 
and conveyance systems are fewer than they once were and their 
costs are often significant. Likewise, developing water reuse 
and desalinization projects can also be costly. Project 
evaluations have also become more complex and lengthy.
    Hence, some observers suggest streamlining or removing 
Federal regulations to facilitate project development and 
operations while others are more protective of the status quo. 
To address authorization and funding issues, some have called 
for an authorization process for Reclamation similar to that 
enacted for the Corps of Engineers in the Water Resources 
Reform and Development Act of 2014. They also call for public/
private partnerships, authorization of non-Federal funding of 
some projects or coordinated funding and creation or 
reactivation of Federal loan programs.
    Some have also proposed new governance or institutional 
structures such as drought commissions, drought councils or 
water transfer mechanisms such as water banks or water markets. 
A difficulty in expanding water markets is this relationship 
between state water rights and the Federal Government's rule 
and having deferred primarily to states' primacy in water 
allocation.
    Last, some commonly pursued options to support drought 
resilience and response at the local level include providing 
technical and financial assistance for drought planning, 
monitoring and mitigation, providing incentives for improved 
water efficiency or conservation and supporting technological 
research and development.
    In summary, addressing drought in the West is a challenge 
for decisionmakers, as we've seen today, at all levels of 
government whether the Federal Government should continue or 
expand its existing policies supporting these efforts or pursue 
other legislative options is likely to be a matter of ongoing 
debate.
    That concludes my testimony. I'm happy to answer questions. 
Thank you.
    [The prepared statement of Ms. Cody follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Cody. I was hoping that you 
were going to have the silver bullet for us. [Laughter.]
    The Chairman. We can wrap this up, and say we have done 
this analysis.
    Ms. Cody. I wish I did.
    The Chairman. Yes, we all wish that you did.
    Each and every one of you has mentioned collaboration, 
cooperation, and flexibility, but it seems that collaboration 
amongst our agencies whether on state side, Federal side, 
working with our tribes, this is all key.
    We clearly hear that, yet we are still faced with a 
situation where the drought is extreme in places, the forecast 
is not looking very good and the uncertainty makes it even more 
difficult, more complicated.
    I would be interested in hearing your perspective, Mr. 
Buschatzke, in what Arizona is doing. Are there ways we can 
provide for greater collaboration with our Federal agencies? 
What are the barriers we have right now that are limiting our 
opportunities to do more, clearly, with less?
    I am going to throw this out to all of you, and then I am 
going to have to go vote but I will be back for a followup with 
this.
    Mr. Buschatzke, if you want to lead off? I would really ask 
all of you to weigh in on this.
    Mr. Buschatzke. So Chairman Murkowski, first I'll say that 
the collaboration with the Federal Government, with the 
Department of the Interior has, kind of, been exemplary so far.
    I think the biggest road block for further collaboration in 
dealing with drought contingency and sustainability planning on 
the Colorado River in the Lower Basin is really number one, the 
drought in California has reduced their flexibility to 
participate in potential ways to save water in Lake Mead.
    I think, second, the environmental issues revolving around 
the Salton Sea. Drain water goes into the Salton Sea from the 
Imperial Irrigation District. We could save a lot of that water 
by creating efficiencies in that irrigation district and save 
that water in Lake Mead, but for the environmental issues 
related to the Salton Sea.
    And last, honestly the fact that California under the 1968 
Basin Project Act does not take shortages, only Nevada and 
Arizona do, has created a bit of an unlevel playing field. And 
so I think we can use the help of the Department of the 
Interior, specifically on that issue, finding a way to create 
some more equity at that negotiating table.
    The Chairman. Mr. Connor, would you like to comment?
    Mr. Connor. Well, I do agree that the issues that Tom has 
raised are the next wave of areas of collaboration that we have 
to deal with, and some of those issues are fairly tough which 
is why they haven't been resolved up to this point. And the 
Salton Sea is certainly one of those areas.
    Nonetheless I can point to the Colorado River Basin where, 
over the last 15 years, we've had six or seven major agreements 
that have reduced water use, that have increased storage in 
Lake Mead, created institutional mechanisms to incentivize the 
saving of water. And yet, here we are facing significant 
percentage possibilities that we're going to face a shortage in 
the Lower Basin in 2016 and 2017.
    Yet the states are still at the table. We've got a system 
pilot conservation agreement that we've all put together, Upper 
Basin and Lower Basin and the Federal Government, to create 
more water, to look for new ways to conserve and place more 
water in Lake Mead. There's an MOU that's just been agreed to 
where I think the states are looking at mechanisms to create 
another million acre feet by 2018. And these are the mechanisms 
that we are going to have to finalize through our agreements.
    But the idea, also, is that we've got to create new 
relationships between the parties. And that's what we've been 
doing.
    I would just note real quickly that the success of the 
Arizona Water Bank, which has been tremendously successful and 
as I found out, even more so, this morning, was facilitated in 
great part by the 2004 Arizona Water Settlement Act that the 
Congress passed. It facilitated Arizona taking its full 
Colorado River entitlement every year, a good portion of that 
which has been stored to alleviate any drought situations. And 
oh, by the way, it also resolved two major Indian water right 
settlements and provided opportunities for them to create 
increased water supply reliability.
    It's a combination of the investments that we make for 
conservation, for looking at new storage opportunities. One of 
the more recent storage facilities we do have is in the 
Colorado River Basin, a regulating reservoir that's saving 
60,000 to 70,000 acre feet per year, once again, keeping that 
water in Lake Mead.
    Investments, new agreements, new relationships and 
certainly, I think for the Salton Sea, we're going to have to 
look at new authorities, probably.
    The Chairman. Thank you.
    Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair.
    Mr. Connor, I think I'll continue with you on this issue.
    First of all, thanks for visiting the Northwest. I think 
you were out at a Yakima Basin meeting years ago with myself, 
then Secretary Salazar, and Congressman Hastings, along with 
others. So I know you have great familiarity there.
    As we've seen these drought conditions persist in the West 
over years, and we've tried to make plans for changes. You 
mentioned increasing storage capacity.
    What are the major barriers for the Department if we 
continue to do authorization project-by-project, and it takes 
years of planning and studying? Again, I'm not talking about 
changing environmental laws, but what do we need to do to have 
more flexibility? What are the major barriers that exist to a 
more rapid response to some of these conditions?
    Mr. Connor. Well I think, you know, obviously the larger 
the project, the more complicated, the more likely to impact 
other water users as well as the environment. And I think 
there's a fundamental question related to the economic 
feasibility of some of those larger projects. So I think, 
sometimes, we have been focused on larger is better, but it 
bogs down our ability to move through permitting processes, 
etcetera.
    And I will give, you know, the Yakima Basin is the perfect 
example with the Black Rock Reservoir proposal which took a lot 
of time, which proved to be probably one of the more expensive 
ways to yield water supply. And when the numbers came out, I 
think it called into question whether it could be afforded and 
caused the parties to go back to the table to a much more 
robust and comprehensive approach to dealing with water supply 
issues from the environment, to new water supply, to 
facilitating conservation efforts.
    I think, at the end of the day, those smaller projects, 
those--and we've been doing this in the Yakima Basin 
consistently for ten to 15 years, the Yakima River Basin Water 
Enhancement Project. I think through from about a 10-year 
period to 2003 to 2013 we created somewhere about 30,000 to 
35,000 acre feet of reduced diversion demand. That water has 
been allocated to in stream flows to improve the conditions of 
the fishery while also being retained by the irrigation 
community to help weather times of drought.
    So I think we're making great advances through a series of 
smaller projects that I think are less controversial, that are 
more affordable and prove to be yielding, adding to the bottom 
line and bringing in more broad support.
    So it's not always smaller is better, but I do think at 
times we get bogged down with the very larger projects.
    Senator Cantwell. Well, you are reminding me that a process 
does solve most problems because of that step of going through 
that larger exercise. I think it is a catalyst to bring all the 
parties together at the table.
    At a hearing that I once chaired for this Committee on the 
San Joaquin, there was a similar process: after 18 years of 
legal battles people decided to come to the table.
    So what about this issue of what do we need to do to 
provide more flexibility to the agency to support those kinds 
of collaborative efforts?
    Mr. Connor. I think we have good authorities right now that 
allow us to participate as a cost share partner in a number of 
these projects.
    And so what's happening in a lot of cases and I think we 
should look at more opportunities to facilitate this is the 
Federal Government is a participant in a lot of projects. I 
would concede that when the Federal Government leads a project 
development activity there's a lot of hoops to leap through, 
with respect to the regulatory permitting process. Certainly 
even there's some of that when we participate. But in a lot of 
cases the states and local entities have developed project 
concepts. They are looking for Federal permits as well as some 
Federal assistance with respect to cost share, and that's 
appropriate in a lot of cases because there are Federal 
interests at stake in the Yakima Basin. We have our trust 
responsibility to the Yakima Nation. We have the environmental 
laws. We have the goals with, we all have, with respect to the 
fisheries. And we have a Federal project that we want to 
maintain its viability to serve agricultural interests for the 
long term.
    So in a lot of cases I think facilitating the Federal 
Government to continue to be a partner in these efforts whether 
they're conservation projects, small storage projects, 
environmental restoration projects, as a partner providing 
flexibility from a financing standpoint for non-Federal 
entities will help facilitate results.
    Senator Cantwell [presiding]: Thank you.
    Senator Flake?
    Senator Flake. Thank you, Madam Chair, and thank you all 
for being here. It is great to see Tom here, and the first 
question is for you.
    You talk about Lake Mead looks like we are going to, you 
know, we are in our 16th year of below average runoff of the 
Colorado River. Lake Mead is likely going to hit or fall below 
the 1,075 feet mark over the next two years and will trigger 
the shortage declaration.
    You talk about structural deficits. You touched on it in 
your comments. Can you explain that further? Evaporation, 
delivery, losses and how that affects allocation?
    Mr. Buschatzke. Yes, Senator Flake.
    So the structural deficit is a function of the fact that 
those losses in evaporation, losses, the reservoir evaporation. 
Those volumes of water in the Lower Basin, Nevada, Arizona, 
California and what goes to Mexico, are not accounted for. So 
in the decree in Arizona verses California each state's 
allocation which was certified in that decree, was for the 
total consumptive use, 2.8 million for Arizona, 4.4 for 
California, 300,000 for Nevada and under the Mexican Treaty 1.5 
million acre feet.
    So more water has to really be in the system to get those 
volumes of water to those entities for actual use. And so that 
impacts the Lower Basin by driving Lake Mead toward shortage, 
even in normal years. The brunt of, again, those impacts fall 
on those who take shortage. Basically, California does not take 
shortage. Arizona, Nevada and Mexico do.
    But there are also impacts to the Upper Basin states, 
Colorado, Wyoming, New Mexico and Utah, potentially. And so, 
their system, under prior appropriation and under their Upper 
Colorado River Compact, they do incorporate the losses into the 
actual use by their farms, customers, cities, etcetera.
    So what happens there is because Lake Powell and Lake Mead 
are conjunctively managed and the contents are balanced. Lake 
Mead falling more rapidly from the losses not being accounted 
for forces more water from Lake Powell to go to Lake Mead. The 
potential impacts there are on loss of power revenues that come 
out of Lake Powell, Glen Canyon Dam. Those power revenues are 
used to fund environmental programs and other things in the 
Upper Basin.
    And also if Lake Mead and Powell continue to drop, 
potentially, those Upper Basin states are subject to 
curtailment under the 1922 Compact if they can't deliver 75 
million acre feet over a 10-year period to the Lower Basin. So 
the impacts fall on both the Upper and Lower Basin because of 
the structural deficit.
    Senator Flake. Alright. During times of water storage in 
the West we often see these conflicts portrayed as irrigated 
agriculture pitted against the cities. Will you explain how 
these tensions will be dealt with in Arizona? Are we trying to 
allow growing urban economy but still maintain healthy 
agricultural economy?
    Mr. Buschatzke. Yes, Senator Flake.
    So there are some tensions in Arizona between our senior 
priority users for Colorado River in the Yuma, Arizona area and 
the cities in Central Arizona, who take Central Arizona Project 
water. We've been working with the Central Arizona Project and 
the Yuma area agricultural interests in trying to help come up 
with a way to do things like intentionally create surplus that 
Deputy Secretary Connor referred to, to try to prop up the 
levels of Lake Mead. I think those things have been going 
fairly well. We don't have a deal on the table yet.
    In Central Arizona our agricultural users who take Central 
Arizona Project water will suffer the brunt of the shortage if 
there's a Tier One shortage in 2016 or 2017. They'll lose about 
half of their renewable Colorado River supplies. They have 
options to pump groundwater under state law. But under our 
Underground Storage and Recovery Program they also have options 
to partner with Arizona tribes and Arizona municipal users who 
have higher priority Central Arizona Project water. Those 
folks, the agricultural users, can partner with those entities, 
take their Colorado River water. And in return those entities 
will get a future credit to pump groundwater from under the 
agricultural land.
    The Department of Water Resources has looked at the 
permitting that goes along with that program, and we've tried 
to create as much flexibility as possible to make those 
partnerships most probable as we approach this shortage is 2016 
or 2017.
    Senator Flake. Thank you.
    Just very quickly in my remaining time. You talk about 
augmentation to our areas. What are the most promising areas to 
augment the resources that we have?
    Mr. Buschatzke. I think the Lower Basin states, including 
Arizona, help funding weather modification, cloud seeding in 
the Upper Basin to try to increase the flows there.
    We also are looking at potential desalination of brackish 
groundwater within our state. Of course are participating 
through the auspices of the Minute 3-19 process, Minute 3-19 
Treaty implementation with Mexico to look at potential bi-
national desalination with Mexico and also potentially 
partnering with California for desalination with California and 
Arizona.
    Senator Flake. Okay.
    Mr. Buschatzke. Those are probably the main sources.
    Senator Flake. Thank you.
    Thank you, Madam Chair.
    Senator Cantwell. Senator Heinrich?
    Senator Heinrich. Deputy Secretary Connor, in its Colorado 
River Basin Study the Bureau of Reclamation identified 
efficiency in conservation projects as some of the most cost 
effective approaches to increasing available water supplies for 
users, in other words, actual wet, delivered water. In New 
Mexico the state has elected to pursue a new diversion project 
on the Helit River under the Arizona Water Settlements Act 
instead of focusing on efficiency projects that would help 
stretch existing water supplies further.
    As Reclamation begins its review process with a value 
planning study this summer, I am wondering how will the lessons 
learned from the Basin Study factor into consideration into the 
costs and benefits of the various projects that could be 
pursued under the Settlement Act?
    Mr. Connor. Senator, I think in looking at, you know, 
obviously when we do our studies one of the areas that we look 
at are alternatives, approaches. And as you've pointed out I 
think that will be something that does get scrutiny as to what 
are the water supply demands that are trying to be met by this 
project, first of all. And then what are the options available 
to meet that demand.
    I think overall, through our history and in my prior 
capacity I had the opportunity to spend a lot of time up here 
testifying on water resources issues. One of the things I went 
back and looked at was what are the relative, you know, back of 
the envelope calculations for the relative different types of 
projects that we have?
    There were a couple of large scale storage projects that I 
mentioned--one was the Black Rock Reservoir proposal, another 
one in California, the Auburn Dam. The cost per acre foot, just 
overall project costs versus yield were somewhere in the 
neighborhood of, you know, $17,000 to $46,000 per acre foot.
    You look at the Water Smart conservation proposals that 
we've gotten, and water conservation is not going to create a 
new supply for a new demand. But it certainly can lead to 
saving water, be able to putting that in storage, maintaining 
flexibility in the situation. Those are down from $500 to $800 
per acre foot.
    The Title 16 Water Reuse Projects that we have which have 
great drought resistance aspects to them, they provide water in 
times of plenty as well as times of shortage. They're about 
$8,400, $8,500 per acre foot. So it gives you the kind of 
range.
    And we've made investments. I think the water conservation 
projects in the Yakima River Basin are something around $2,500 
per acre foot. And we did a major infrastructure improvement 
project in California, an intertie between two canals which 
resulted in about 40,000 acre foot per year on average. And 
that was $850 per acre foot, cheapest water in the West.
    So we're making improvements that, I think, are adding to 
the bottom line of water availability. Every project needs to 
be evaluated on its own merits, but it shows you the range and 
the differences.
    And quite frankly, what we found, is we've got a lot of 
demand for these conservation and reuse programs because, I 
think, water managers, this is not a Federal driven program. 
We've got the availability where we can participate. But we're 
getting applications on a yearly basis that greatly exceed the 
available resources because water managers view that as the 
best investment opportunity to yield water supply, in a lot of 
cases much better than large storage.
    Senator Heinrich. Great, thank you. I appreciate your focus 
on looking quite transparently at the cost per acre foot and 
the yield of these individual projects. I think that is 
incredibly important given the stress we are at West wide now.
    Ms. Cody, I want to move to you real quickly.
    For a number of years now the Bureau of Reclamation has 
actually leased water from the local water utility in 
Bernalillo County to maintain flows in the Rio Grande necessary 
to support local wildlife populations, and many have suggested 
expanding that program to lease water from local irrigators on 
a voluntary basis.
    Can you tell us a little bit about how water leasing has 
been used in other states around the West to meet water needs 
and what New Mexico should keep in mind as we consider 
expanding the tool box in the middle Rio Grande Valley?
    Ms. Cody. Thank you for the question.
    The other areas that this has been done, I think we heard 
from testimony here today in Washington State where the 
Department of Ecology has worked with having water left in 
streams by having people voluntarily agree to use that water. I 
don't know, honestly, if the state is paying for that. That 
would be a question for my colleague over here.
    California is another place where people with senior water 
rights have entered into long-term contracts with municipal 
areas to move water on a voluntary basis. Usually those are 
structured as a contract. Reclamation has done some work on 
providing guidelines for long-term transfer of water and short-
term transfer of water in those situations.
    So those options are out there. Others have proposed to do 
similar things in other areas of the West and that could 
include New Mexico.
    Senator Heinrich. Thank you.
    The Chairman [presiding]: Senator Barrasso?
    Senator Barrasso. Thank you, Madam Chairman.
    Mr. Connor, it is nice to see you again. Thank you so much 
for being here. You are aware of my efforts to pass 
legislation, S. 593, which would compile the Bureau's 
maintenance backlog into a report that would be available to 
the public and updated every two years. Your staff has been 
very helpful, and I just want to say that.
    You have been very helpful in working with my office to 
move this legislation. It unanimously passed the Senate the 
last Congress. Will you commit once again to continue to work 
with me to move this legislation so we can understand what the 
total backlog is and eventually the way to address it?
    Mr. Connor. Yes, Senator. Full commitment. That's a very 
valuable bill, and my staff says the same thing, that your 
staff has been wonderful to work with.
    Senator Barrasso. Well, good. Thank you.
    You know, folks across the West, we are in serious need of 
more water. Ranchers in my state, like Big Horn Basin, they 
need water to grow alfalfa, to raise cattle. Many have junior 
water rights, and they worry about getting the water they need 
to keep their livelihood.
    So the sentiment in the West and certainly in Wyoming has 
always been summed up by the old saying, ``Whiskey is for 
drinking, water is for fighting over.'' The best solution, I 
think, to solve the water crisis is to increase water storage 
in the West.
    The State of Wyoming, through our Governor's office, has 
developed a strategy to increase water storage, and I support 
them on this. So I have introduced legislation, S. 1305, to 
expand the storage capacity of Fontenelle Reservoir, to provide 
more water for Southwest Wyoming. Together we are looking at 
other options to expand our reservoirs.
    So my question is, will you continue to work with me, with 
Governor Mead, to help move water storage projects forward such 
as Fontenelle and others and what steps are you taking to 
address this need across the West for more water storage?
    Mr. Connor. To the Wyoming specific examples that you 
referenced, Senator, of course, we will be happy to keep 
working, particularly I know we've had some activity on the 
Fontenelle Reservoir issue, I think. We want to work through 
the technical aspects, in particular. But it's, I think it's 
demonstrating where we see there is value and economic 
viability, in particular, is looking at existing storage 
facilities and seeing how we might increase. So yes, we are 
absolutely committed to continue to working with your office.
    Overall, we have a number of storage proposals that we are 
continuing to do work on, particularly in California. 2004 
legislation, CALFED, required us to look at four major new 
storage opportunities in California. One of those, the Las 
Calaveras Dam, raises a facility that's in the Bay delta 
itself. Did go through a phase one dam raise, increased water 
storage by 60,000 acre feet, now they're looking at a second 
raise, potentially another 100,000 acre feet.
    So but we've completed some. We're in the process of 
completing others. We are looking at increasing storage in the 
St. Louis Reservoir which is south of the delta in California. 
I think that might have a great opportunity to provide 
additional water supply.
    And as I mentioned earlier, we've looked at some smaller 
regulating reservoirs. One of the most successful aspects of 
that is Brock Reservoir on the Lower Colorado River. You know, 
obviously we've got 60 million acre feet of storage on the 
Colorado River, quite frankly. And we're trying to get more 
water into those existing facilities.
    But there's great value in a regulating reservoir, 8,000 
acre feet that's yielding about 60,000 to 70,000 acre feet of 
yield.
    $172 million, the major municipalities in Arizona, 
California and Nevada paid for that. We provided technical 
system assistance. And once again, that proved to be great 
value as to the dollars per acre foot added.
    So it's not a comprehensive look across the West. It's more 
where there have been projects identified that we think that 
there are sponsors for that want to look at storage. And we are 
certainly believe that that's one of the tools that we need to 
address our water resource challenges.
    Senator Barrasso. Well, I appreciate it.
    You know, with increasing water storage in terms of 
Wyoming, I know the Wyoming Water Development Commission is 
working on producing a viable feasibility study on enlarging 
the Bull Lake Reservoir. I know you are familiar with that.
    If we look at Congress enacting language broadening 
authorities under the Safety of Dams Act, will your Bureau then 
have the authority, you think, to integrate a dam safety fix at 
Bull Lake with the Wyoming Water Development Commission with 
their proposal to enlarge the facility?
    Mr. Connor. I think we need to look at that authority 
issue, quite frankly, under our existing Safety of Dams 
legislation. But I do think it warrants what we need to be 
looking, as we're doing major corrective actions to existing 
dams, that we should look at the opportunities to increase 
storage. I do think there's an authority issue there, and we'll 
need to work through cost share issues on that point.
    Senator Barrasso. Finally, Mr. Ogsbury, in your written 
testimony you mentioned and other witnesses today have 
testified the drought is not just in California, but in many 
Western states as well. I believe any drought relief bill 
should not just address California's drought crisis. There 
should be a west wide drought relief.
    I am just wondering what you are hearing from Western 
Governors' that you represent.
    Mr. Ogsbury. Chairwoman Murkowski, Ranking Member Cantwell, 
Senator Barrasso, members of the Committee, the Governors have 
been phenomenally engaged in the Western Governors' Drought 
Forum, the invention of our current chairman, Brian Sandoval of 
Nevada.
    As we've gone across the West, Senator, Governor Martinez 
of New Mexico hosted a workshop on drought's impacts on tourism 
and recreation. Governor Brown of California hosted a workshop 
on drought's impacts on agriculture. Mr. Connor participated 
with us in Las Vegas when we did a workshop that Governor 
Sandoval hosted on drought's impacts on water supply. They 
fully recognize that this is a regional issue and it demands 
regional collaborative solutions.
    Senator Barrasso. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Franken?
    Senator Franken. Thank you, Madam Chair, for holding this 
hearing.
    We have been hearing from the testimony of the Western 
United States experiencing record low snow pack, unusually dry 
weather, the warmest temperatures on record and these drought 
conditions are having tremendous impacts on our communities and 
our economy. We have also heard the cooperation between states 
and Western states and Federal Government and different 
entities to address these impacts.
    To make matters worse many climate models are projecting 
that portions of the West are just likely to get drier and 
hotter. So now more than ever I believe that the Federal 
Government should take the lead in supporting research on how 
climate change will exacerbate drought conditions like the ones 
we have been talking about today.
    Mr. Connor, what is the Department of the Interior doing to 
better understand the impacts of these climate-related events 
and how is that informing our understanding of what we are 
going to do going forward?
    Mr. Connor. Thank you, Senator Franken.
    We have a number of different areas by which we are 
participating, particularly in the area of better understanding 
the impact of climate change on water resources and then 
systematically trying to assess what are the right strategies 
to deal with those implications. And we participate, our US 
Geological Survey premier science organization participates, 
with the Global Change Program that helped put together the 
National Climate Assessment.
    Certainly within the Department itself we have had a focus 
on putting together more transparent use of our water-related 
data because not only can we use that, but there's a lot of 
smart people outside the Department. And we have an open water 
data initiative to try and standardize data enough so that we 
can put it out and make it accessible because we think others, 
particularly in academia, can help us use that data to better 
understand the changes that have occurred to date and how to 
move forward.
    From a more practical standpoint we have a Basin Studies 
program within the Bureau of Reclamation, and we are looking at 
opportunities to assess on a basin-wide scale supply/demand 
imbalances over a 50-year period using the best climate data 
and downscaled models to assess how supply is changing in 
individual basins.
    Senator Franken. Since we are projecting drier, hotter 
weather going forward because of climate change, is that going 
to make certain technologies suddenly economic where they were 
not before?
    Anyone is free to comment on this. I heard about 
desalinization of brackish waters in Arizona. I think San Diego 
has a billion dollar desalinization project that will deliver 
seven percent of the county's needs.
    Going forward, things like, I know you mentioned the US 
Geological Survey. I know that the aqueducts in California, for 
example, go through some very arid areas and there is a lot of 
evaporation. And I know the U.S. Geological Survey study 
covering certain, in very low precipitation areas, covering the 
aqueducts so you don't lose the evaporation. Going forward are 
we going to see certain approaches become economical, start to 
make sense, like desalinization or like that, like covering the 
aqueducts? Are we going to start seeing those things become 
economical? Anybody can weigh in.
    Mr. Loranger. I will, thank you.
    We are, for example, leasing water, one season leases. Ten 
years ago in Yakima Basin we paid $137 an acre foot. This year 
it's about $275, and this is just a reverse auction where we 
solicit bids from water rights holders. So costs have doubled.
    And with more frequent droughts what does that mean for the 
cost of water? What does that mean for the cost of leasing?
    For example, the Yakima Integrated Strategy, there's some 
controversy around the benefit cost analysis. One of the 
proposals is to have a pumping system set up on Lake Kachese 
because there's 200,000 acre feet of dead storage. Well, if you 
could pump that water down the Yakima, then 200,000 acre feet 
is an enormous amount of water for both fish and agriculture. 
So I think it could be that as water is more scarce projects 
like that make more economic sense.
    Thank you.
    Senator Franken. Any other comment?
    Mr. Buschatzke. Yes, Senator Franken.
    So looking at some statistics for desalinization of water, 
for example, in Texas to desalinate brackish groundwater, the 
cost is about $1,000 per acre foot. For Pacific Ocean 
desalinization it's about $1,500 to $2,100 an acre foot. You 
compare that with Central Arizona project cities who treat new 
and reportable water at a cost of about $1,200 to $1,600 per 
acre foot. So it's becoming more economical, coming more into 
range of what we're seeing now for the costs of water.
    Senator Franken. Thank you, Madam Chair.
    I know that someone mentioned Israel before. They are a 
very arid area and a great agricultural sector, and they are 
exploring desalinization.
    So as we go in the future I think there are certain 
technologies that are going to become economic.
    Thank you.
    The Chairman. Senator Gardner?
    Senator Gardner. I am happy to allow Senator King to go and 
just flip flop if we could.
    The Chairman. So you will go after him, fine. Thank you.
    Senator King?
    Senator King. I appreciate it.
    Just really one major question, and I am not sure who wants 
to tackle this. This might be something that we take for the 
record.
    I am interested in the historic data of water in the West. 
In other words are we facing a new crisis or are we seeing a 
return to a normal situation over the 1,000 years or 10,000 
years? I think that is an important question because that will 
inform our response.
    Does anybody have any response to that question now or is 
this something that we have to look at?
    Mr. Connor, do you have any background on that?
    Mr. Connor. I do have a quick thought. But yes, I think it 
deserves a little bit more elaboration for the written record.
    Mr. Connor. But as an example, we've got about 100 years of 
stream flow data in most of the river basins. So that's the 
history----
    Senator King. That's a blink of the eye.
    Mr. Connor. That's a blink of the eye, but the example I 
wanted to give is in the last 15 year drought in the Colorado 
River Basin, the in steam flows, the runoff within that system, 
is the lowest on record over that period of drought.
    But through tree ring data there's been some research that 
is highlighted that it's in the lowest first percentile of the 
last 1,200 years. So there are new mechanisms to look at the 
estimates of what the runoff within that basin has been, and we 
are at the very lowest levels through that tree ring data.
    And we may have similar reconstructions of data in other 
basins that we can now start to compare to, to really find out 
where we're at and how significant is this drought because 
drought, of course, is cyclic.
    Senator King. Good, I appreciate that.
    Any further information, I think that is important to have 
to inform how we respond to this.
    I was in California in April, and I was up in the mountains 
and was shocked to see that the reservoirs at what looked like 
August levels in April when they should have been full. I was 
told that the snow pack in the Sierras was at six percent of 
normal, and I thought they said 60 percent. It was 94 percent 
down which is just stunning.
    It seems to me that we are going to--one of the things and 
you all have mentioned this at various points in your 
testimony. We really need to talk about conservation and 
efficiency measures, not necessarily conservation of don't use, 
but use more efficiently, low flow toilets, drip irrigation. 
All of those kinds of techniques which are probably the lowest 
cost, I think you testified to this, Mr. Connor, that of all 
the alternatives those tend to be the lowest cost per acre foot 
as opposed to reservoirs, desalinization and other 
technologies. Is that accurate?
    Mr. Connor. Absolutely. It is one of the most efficient 
ways. It's the low hanging fruit, particularly for any 
municipalities, the appliances, the plumbing that they use.
    One area and our Water Smart program that we've been 
investing in since 2009, we've invested something like $460 
million of Federal money, and we've yielded about 860,000 acre 
feet of water that we view as conserved or contributed as new 
supply that we've help facilitate through that program.
    One of the ongoing--I just looked at the 50 plus projects 
that we just announced a couple weeks ago, turf removal 
programs for a lot of municipalities are very highly leveraged 
in their water savings amongst municipalities across the West. 
And so we're still giving out some grants along those lines.
    Senator King. I have one question on energy efficiency. I 
am thinking energy, but it is a similar issue of water 
efficiency is price signals.
    What would be the incentive for the efficiency if somebody 
is going to put in a low flow toilet, is there a price signal 
on the water that will make that a justifiable expense? In 
other words, are they doing it just to be good citizens or are 
they saving themselves money?
    I think this can be something we can discuss further, but 
that is important. Are we talking about incremental price 
increases if you use above a certain amount or a regulatory 
requirements that new installations have to be more water 
efficient? It seems to me that is an important discussion 
because if water is the same price whether we are in a terrible 
drought or in a surplus situation then there is no incentive 
for people to do that kind of efficiency.
    Mr. Michael, talk to me about your farm and the incentives 
for water efficiency.
    Mr. Michael. Well California, because of the regulatory 
climate, we use every resource as carefully as we absolutely 
can. So we have an incentive just based on our cost of 
production to always use things as carefully as possible.
    We've installed drip irrigation on over 60 percent of our 
farm. We have very successful collaborative partnerships with 
the Bureau on modernization of the entire water district which 
benefits all the water users. So we've had a long history 
working with the Bureau. I think it's important, as you 
mentioned, not only to look at the very large projects, but 
also find ways to incentivize local efforts and work in 
collaboration with the Bureau and the Federal agencies to help 
that along.
    So and then streamlining some of the environmental 
requirements if you were going to have some participation by 
the private sector in some storage projects and things like 
that, I think, you know, there's ways to encourage other 
participation. But we are very proactive in terms of using our 
water resources.
    Senator King. Thank you.
    The Chairman. Thank you, Senator King.
    As we talk about infrastructure and updating things around 
this country, I think one of those areas that we forget, we 
want to talk about efficiency or conservation, is old water 
systems that just leak, how much water we lose just because of 
aging infrastructure.
    Senator Gardner?
    Senator Gardner. Thank you, Madam Chair, and thank you for 
holding this hearing today. I think it is very timely.
    While we in the West are talking about drought issues that 
may have of spurred this hearing, all of us in the West could 
talk about water all day, every day of the year, regardless of 
a drought or not. In fact parts of Colorado today are flooding. 
We see flooding today, and two years ago in 2013, we saw 
massive and catastrophic flooding in Colorado intersparced with 
drought in parts of the state as well.
    If you just look at the needs of Colorado over the next 
several years, by 2050 according to the state's Department of 
Natural Resources, the statewide Water Supply Initiative, it is 
estimated that just on municipal and industry, industrial needs 
alone for water by the year 2050, Colorado will have to have an 
additional 600,000 to 1,000,000 acre feet of water. That is not 
even taking into account drought. That is just talking about 
future projected needs of MNI on our water supplies. If you 
look at what happens in Colorado without that water over the 
next several decades we lose between 500,000 and 700,000 acres 
of farmland through urbanization, urban water transfers, if we 
do not have the water that we need.
    We have done a good job of conservation in Colorado. Can we 
do better? Obviously we all can, and we should look at ways to 
develop the critical conservation approaches in Colorado.
    We have basically resulted, through the hard work of many 
people, in 18 percent water savings per capita in Colorado 
since the year 2000. And per capita energy--water efficiency 
has resulted in an 18 percent per capita water conservation 
rate.
    If we hit the median level, though, of every water storage 
project that we need to get to that 600,000 to 1,000,000 acre 
feet of water, we are looking at a $15 billion infrastructure 
cost in Colorado alone simply to develop 800,000 acre feet of 
water, additional water that we need by 2050. That is a 
significant cost.
    If we build every water project in Colorado that is under 
construction, I guess the acronym is IPP, if we build all the 
plans that we have, we still are somewhere between 180,000 and 
500,000 acre feet short of the water that we need by 2050. So 
regardless of the issue of drought, which is severe and 
catastrophic in parts of this nation and indeed parts of 
Colorado, the conversation that we have to have on water in 
this country is real. Without drought, we need $15 billion in 
Colorado alone to meet our needs by 2050.
    So I have a couple of questions for both of you, 
Reclamation and to Mr. Ogsbury.
    One of the concerns that we hear is giving more flexibility 
or power to the Department of the Interior's Bureau of 
Reclamation to manage water projects. I am concerned about that 
and believe perhaps we need more flexibility and management 
ability at the local and state levels.
    Mr. Ogsbury, do you think additional flexibility at the 
local level, water management levels, would be preferable to 
more control at the Federal level over water projects?
    Mr. Ogsbury. Chairwoman Murkowski, Senator Gardner, members 
of the Committee, the Western Governors have adopted a policy 
resolution 2014-03 Water Resource Management in the West. With 
the Chairman's permission I'd like to submit that for the 
record.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ogsbury. And it is very emphatic about the Governor's, 
about the state primacy over water management authority.
    Senator Gardner. Thank you.
    I think one of the challenges we also see is it has taken 
almost a dozen years for the Chatfield Reservoir in Colorado, 
which was an Army Corps of Engineers' project, to receive the 
approvals it needed to move forward in Colorado.
    In Northern Colorado where the flooding is occurring, we 
have another water storage project that started in 2004, the 
NIST project, which could store tens of thousands of acre feet 
of water. Yet we still do not have the necessary permits for 
that project.
    Is there something that we can do from a permit point of 
view to increase our ability to store more water as we work on 
the needed conservation efforts?
    Mr. Ogsbury. Chairwoman Murkowski, members of the 
Committee, Senator Gardner, quoting from that still same policy 
resolution 2014-03: ``Infrastructure planning and permitting 
guidelines, rules and regulations should be coordinated, 
streamlined and sufficiently flexible to allow for timely 
decisionmaking in the design, financing and construction of 
needed infrastructure, account for regional differences, 
balance economic and environmental considerations and minimize 
the cost of compliance.''
    Senator Gardner. Thank you.
    I think there are three legs of a stool to a sound water 
policy. Number one is increased water storage as we see that we 
need. Number two is critical conservation, what we can do to 
conserve more water, become more water efficient. Number three 
is indeed what you just said, that Federal, State, and local 
partnership. Whether that is funding or planning to make sure 
that we are taking advantage of every opportunity we can to 
conserve, to store additional water. And I mentioned those 
other projects.
    There is one other project, Mr. Conner, that I wanted to 
ask you about. I had a great conversation with Jennifer Gimble 
who spent, obviously, a significant time at the Colorado Water 
Conservation Board and is now with the Department of the 
Interior. We spoke about the Arkansas Valley Conduit. It is 
something that was authorized under President Kennedy and has 
received some funding over the past several years which we are 
grateful for. But now we have hit the point where we need to 
move forward or figure out a different way to move forward, but 
I think the funding issues need to be resolved. We need to 
figure out a way to ramp up this project so we can build this 
desperately needed, 100-mile plus long pipeline to provide 
clean, abundant water to the people of the Arkansas Valley.
    What specific actions would the Bureau of Reclamation, 
Department of the Interior like to see at the local level or 
state level in order for the Arkansas Valley Conduit to move 
forward?
    Mr. Connor. Thank you, Senator, for that question.
    I think overall it is a time of transition with respect to 
Arkansas Valley Conduit, and I do think we need to look at a 
different and better funding model.
    Our goal, up until this point, at the Bureau of Reclamation 
has been to look at the permitting actions that needed to be 
done. Figure out the best alternatives in moving forward in 
laying out that project and then get it to a full design phase. 
And that's what we've been working over the last couple years 
is to invest the money necessary to get to the design phase. 
Fully understand the cost.
    Now we're close to that transition point. And what we've 
talked about over the last year is there a way to use state 
money. And I know they've got a significant low interest loan 
from the state. Is that enough to get the project started, to 
start phasing in construction, serving some of that demand? I 
agree with you, absolutely, it's a critical, important project.
    And give us some time to look at other Federal programs 
that might be used to contribute to the cost of the 
construction. And I say that just because in as much as I think 
the Administration has supported a robust budget for Bureau of 
Reclamation, and Congress has added to it knowing the 
importance of water resource issues.
    We're just in a bind overall, particularly with respect to 
these rural water supply projects. We are $1.5 billion behind 
with our rural water program, and I think we're looking at $300 
to $400 million more for the Arkansas Valley Conduit. We need 
to look at cobbling together a bunch of sources.
    Senator Gardner. If there are particular actions you would 
like to see at the local or state level when it comes to the 
Arkansas Valley Conduit, I hope that you will contact my office 
with those so that we can share them with the local operators 
and water managers.
    Mr. Connor. We will do that, absolutely, Senator.
    Senator Gardner. Thank you, Madam Chair.
    Thank you.
    The Chairman. Senator Daines?
    Senator Daines. Thank you, Madam Chair.
    We have heard a lot from Western Senators today as well how 
critical water is.
    I know last night when I was chatting with my wife, my wife 
and kids live back in Montana, I checked on how the four kids 
were doing. Then it was how are the three dogs doing? Then it 
was what does the rain gauge say? [Laughter.]
    Because we just had a bunch of storms come through Montana 
and May has been a pretty good month. We made up for some lost 
time, but the West is having drought. It is a serious issue.
    Though the drought conditions that we are seeing in Montana 
are not as severe as those in California, we still face below 
average snow packs. We have seen some welcome rain storms over 
the last few weeks, but they are not going to replace the 
summer snow pack runoff which normally occurs.
    I want to note that the headwaters, literally the three 
forks of the Missouri that form it, are 30 miles away from 
where I grew up. In fact, recent news reports, including ones 
about the Flathead River Basin, show that we are at 55 percent 
of normal snow levels. The Kootenai River Basin, again these 
are up in Northwest Montana, is reporting 16 percent of normal 
levels.
    So the concern now is that we are looking at June 2nd is 
what does this mean for fire season coming up around the 
corner?
    Montana has over 7,000,000 Federal acres that are at high 
or very high risk of wildfire, most of which are managed by the 
Forest Service. That is approximately one in four Federally-
controlled acres in my home state of Montana, and nearly 
2,000,000 of these forested acres are most in need of some kind 
of treatment because they are near populated communities or 
critical watersheds.
    Unfortunately I was just informed by the Forest Service 
that the hazardous fuels treatments were only conducted on 
about 52,000 acres in the last fiscal year, so this current 
pace of treatment is unacceptable. Now we are staring at a 
significant fire season coming just around the corner. Our 
communities, our watersheds, our habitat, our access to 
recreation, all of these critical Montana treasures are at real 
risk because of wildfire.
    Mr. Buschatzke, your testimony mentions how a number of 
national forests in Arizona were created primarily for the 
purpose of watershed protection. In fact, I understand the city 
of Phoenix set aside $200,000 for active forest management, the 
National Forest Foundation Project on Arizona National Forests 
and the purpose, as I understand it, is to protect the 
watersheds supplying water to our communities. Could you expand 
on the risk to watersheds that unhealthy forests pose?
    Mr. Buschatzke. Senator Daines, certainly.
    So in Arizona we've looked at the condition of the forests 
in pre-settlement times, and they were less than 50 trees per 
acre. Today there are over 1,000 trees per acre in our forests. 
So they are choked. Fire risk gets high.
    In the 1980's we burned about 85,000 acres in those 
forests. In the 1990's, about 230,000 acres. And in the 2000's, 
over 2,000,000 acres have burned in the forest.
    So we are seeking ways to thin the forest, and honestly 
it's going more slowly than we would like it to go. Some of 
that is some of the environmental restrictions under NEPA and 
the Endangered Species Act. And we will look, maybe, again as 
we've talked potentially about streamlining some of those 
issues for California for transferring that same streamlining 
to Arizona to help with our forest issues and our forest 
health.
    Senator Daines. So connecting the dots there, what impact 
on the watershed does a wildfire pose?
    Mr. Buschatzke. So after the wildfire, the erosion and 
runoff you get from soil going into the streams creates huge 
water quality problems. It greatly increases the turbidity in 
the streams and raises the treatment costs for those cities who 
take that water out of those streams further downstream. That's 
one of the issues.
    It also chokes our reservoirs with silt, and those 
reservoirs will rapidly fill up and lose more of their capacity 
over the long term. So we'll lose storage long term as well. So 
that's one of the other big issues that the forest fires 
create.
    Senator Daines. Mr. Ogsbury, in your testimony you 
mentioned a resolution which the Western Governors' Association 
had adopted in a wildland fire management. This resolution 
draws attention to the use of active forest and rangeland 
management as a means to prevent wildfire and promote healthy 
landscapes.
    How are healthy forests linked to helping to maintain 
clean, reliable water for our communities?
    Mr. Ogsbury. Chairwoman Murkowski, Senator Daines, Western 
Governors understand the interrelatedness of these various 
resources issues on which we work, and they certainly recognize 
that wildfires and water supply and forest management all 
impact one another. I think we would certainly subscribe to the 
comments of the previous witness and beyond that I would ask 
for the ability to, or permission to answer more fully for the 
record.
    The Chairman. We would welcome additional comments.
    Mr. Ogsbury. Thank you.
    Senator Daines. Alright, thank you.
    Last for Deputy Connor. Your testimony talks about how 
increased wildland fire risk threatens public health and a 
variety of resources including habitat for threatened and 
endangered species. What is the Department of the Interior 
doing to mitigate that risk?
    Mr. Connor. A couple of areas.
    To get to the point that you were talking about, you know, 
there is not sufficient funding that we would like to see 
across all the agencies with respect to hazardous fuels 
reduction. So what we've tried to do is expand the interest and 
the partnerships available to deal with that. And the Bureau of 
Reclamation, a couple of years ago, we started the Western 
Watershed Enhancement Partnership for the very reason that you 
identified here.
    We had a couple of situations in Colorado where Denver 
Water and Colorado Springs Utility have faced massive 
maintenance costs in cleaning up post fire because of siltation 
and other impacts on the reservoirs. And so we've formed 
partnerships.
    One in Montana above Hungry Horse with local entities to 
try and the Forest Service would add money and we would do 
fuels reduction right above critical water infrastructure.
    So it's starting to take off. We're getting good. The city 
of Payson, I was out for an event last year in Arizona. We're 
starting to get a lot of traction with interested entities. So 
we're expanding upon the resources to bring to this issue.
    Also we have a fire funding proposal in the President's 
budget. For the last two years we've gotten great support, very 
much appreciated. We need to get over the finish line where we 
can increase the cap and make available emergency funds for 
fire suppression so we don't have to take it out of other 
accounts like our hazardous fuels reduction.
    Through that we would like to have more stable budgeting or 
fuels reduction resilient landscape activities where we can 
marry up fuels reduction with landscape improvements that 
address species issues, the health of the overall forest. And 
that's our goal with that budget proposal.
    Senator Daines. Well, I appreciate that, and that point 
that we want to be filling our reservoirs full of good, clean 
water and not silt as we look at one way here to mitigate the 
impacts of drought.
    Thanks.
    The Chairman. Thank you, Senator Daines.
    I want to continue with Mr. Connor, the relationship 
between water and some of our endangered species.
    When Reclamation makes decisions on supply and delivery, is 
the legal contract between the Bureau and water users equal to 
the Federal Government's statutory responsibility to protect 
threatened or endangered species? Is this viewed equally? And 
whatever your answer is, I am curious to know why? If you can 
just speak to that?
    Mr. Connor. It's not necessarily viewed equally, Chairman 
Murkowski. It depends on the contractual language.
    The vast majority of Reclamation's contracts contain what 
is called a shortage clause. And that clause, depending on its 
language, but the majority have been interpreted to say 
shortages to contracted amounts due to drought and even 
regulatory requirements result in Reclamation not delivering, 
not having to deliver, that quantity of water.
    There are some contracts, though, where it's been found the 
language is different. And that has not been held to be the 
case.
    The Chairman. Let's just use a specific example.
    As I mentioned, I was in the Central Valley in California 
and all the discussion there is about release to provide for 
the Delta Smelt. So in that situation is that one where the 
statutory requirement to protect the smelt overrides the legal 
contract, again with the Bureau, for water for users?
    Mr. Connor. It is the statutory, regulatory requirements as 
manifested in biological opinions are legal requirements.
    The Chairman. Right.
    Mr. Connor. That the Bureau of Reclamation has to comply 
with as part of making its water allocation decisions.
    The Chairman. How then, as we are trying to gather the data 
to better understand whether or not we are making any head way, 
whether it is with the Delta Smelt or with others, with these 
environmental releases? How are we doing with our data 
collection?
    I mentioned in my initial questioning the collaboration 
that is, obviously, key throughout all of our agencies. Are we 
also collaborating when it comes then to the data collection 
that is necessary for making these decisions as we are talking 
about these environmental releases?
    Mr. Connor. Chairman Murkowski, I recognize that there are 
differing views, having read all the testimony presented today, 
but I think we are doing a much better job of collaborating and 
applying the biological opinions and I can give you several 
examples.
    These biological opinions from NOAA fisheries and the U.S. 
Fish and Wildlife Service, having to do with Delta Smelt and 
several surmounted species, are very significant in how they 
affect water supply over time. But they've received a great 
amount of independent, scientific review which isn't always the 
case in all biological opinions.
    The two biological opinions, I think between them, they 
were subject to four independent reviews prior and two reviews 
subsequent. The National Academy upheld them as being 
fundamentally and conceptually sound in their application. 
Having said that, they also raised issues about several of the 
reasonable, prudent alternatives saying that they weren't as 
well grounded in science and needed to be looked at closer.
    We have engaged in a collaborative science program with 
water users, and we have gradually made incremental changes in 
how we apply those biological opinions. We've done a better job 
with resources, particularly provided by the Congress, to 
install monitoring stations, monitoring turbidity, where the 
fish are. It's given us more flexibility to operate the pumps 
at higher levels. We have just recently, this past year, made a 
change to the incidental statement that applies for the Delta 
Smelt which was critical because we were taking smelt at the 
pumps in a manner that would get close to that incidental take 
limitation which would have caused us to re-consult.
    What we did is we took new data presented by the water 
users. We were convinced of the scientific soundness of that 
data to increase the incidental take statement.
    Overall I would just say we're getting better. We're making 
changes. You could certainly argue those changes should have 
been made several years ago, but we are moving in the right 
direction with respect to flexibility. And I do think there is 
data out there that does demonstrate the benefit to the fishery 
from the application of these biological opinions. I don't 
believe that there's----
    The Chairman. Let me ask Mr. Ogsbury then, from the Western 
Governors' perspective, are we getting better? Are we doing 
enough? Do we have this collaboration? Are we gaining the data 
that is going to be helpful?
    Mr. Ogsbury. Chairwoman Murkowski, Ranking Member Cantwell, 
as it turns out data needs emerges as one of the key themes of 
the Drought Forum Workshop discussions over our initiative's 
first year. And as we move into years two and three of the 
Western Governors' Drought Forum I think that focus on data and 
data gaps will sharpen.
    One of the things we heard is yes, there's a lot of data 
out there, but it's poorly coordinated, disseminated, 
synthesized, analyzed and interpreted. So as we look forward to 
the coming years of the Drought Forum, we're going to explore 
ways to ensure that the collection and sharing of crucial 
drought, flooding and extreme weather related data impacts 
statistics and information are improved and sustained.
    The Chairman. I am going to ask one more question and then 
turn to my colleague, and we will wrap up here.
    A lot of headway, I think, with the technologies that allow 
us to conserve more water whether it is, as was mentioned by my 
colleague, Senator King, low flow toilets or what we are seeing 
with low drip irrigation. It is incredibly impressive. It is 
also very expensive, but it just goes to the point that these 
investments will be made for the long term recognizing that we 
are going to be dealing with these water and drought issues for 
some time, but considerable technologies that are there.
    I mentioned the Energy Water Nexus in my comments. It is my 
understanding that in the energy producer's world there has 
been some pretty considerable technology that allows our energy 
producers, particularly in Oklahoma, to be managing water more 
efficiently in ways that, I think, catch a lot of people by 
surprise that they are actually putting more water back into 
the system than they are using.
    Is this something that your group, the Drought Forum, Mr. 
Ogsbury, has been looking to in terms of best practices that 
are out there?
    Mr. Ogsbury. Chairwoman Murkowski and Ranking Member 
Cantwell, absolutely. In fact, our Drought Forum Workshop 
series began in Norman, Oklahoma where Governor Fallin hosted 
our first workshop that focus went very deep on drought's 
impacts on energy production.
    We've learned a great deal about opportunities that energy 
producers have to source marginal quality water near energy 
operations to return cooling water to reservoirs for reuse and 
to adjust cooling water consumption to advance computer 
controls.
    We've learned a great deal about the opportunities that 
utilities have to use reused brackish water and effluent so by 
all means.
    The Chairman. Thank you.
    Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair.
    I generally think this hearing is about the new normal that 
we are seeing in drought conditions; we need new solutions. I 
thank Mr. Connor and Mr. Loranger for talking about some of 
those solutions.
    My colleague asked you to be specific on some legislation. 
I wanted to get more specific on the next parts of the Yakima 
Basin project--things like the Kachess Reservoir and building 
fish ladders and things of that nature--do you see those as the 
logical next step?
    Mr. Connor. I do, Senator Cantwell. I do see those as 
logical next steps for moving forward the comprehensive plan 
that exists as it addresses water supply and environmental 
issues and trust issues. I think it represents a very good 
strategy that seems to have been moving forward with broad, you 
know, I wouldn't say consensus because you can't get consensus 
on anything in the water world, but as broad a support as you 
can get from a number of different constituencies.
    I think, you know, to be blunt there's always going to be a 
question of what's the appropriate Federal role in this 
strategy verses state and local entities. And I know the state 
has really stepped up to fund significant amounts of the 
program as soon as it got the plan was finalized.
    And we are making incremental investments as strategic----
    Senator Cantwell. I know you are not an expert on 
agricultural issues, but isn't the Federal Government going to 
see this one way or another?
    I mean, when you have drought, emergency drought issues 
related to agriculture, then people are going to come here and 
talk about crop loss and cost damage and they are going to ask 
the Federal Government to help.
    So isn't this about measuring the level of investment we 
can make now that, I can't remember if it's you or Mr. Loranger 
that talked about the improvements that saved 35,000 acre feet 
of water that could then be used for something else? That was 
just like the beginning of this process, right? So isn't this 
about investing now so that we don't come back to the Federal 
Government later with all these disasters and ask for help?
    Mr. Connor. Senator Cantwell, I think that's a very good 
point. I think we have made that point in other basins. And 
we've advocated for significant resources for funding conflict-
ridden basins like the Klamath Basin. There are assistance 
programs, drought relief programs that have continually gone 
and expanded resources to address those issues. And there's an 
argument to be made that these up front investments do help to 
head off those kind of shortages, conflicts and the relief 
measures that are needed.
    Senator Cantwell. So I think the thing I like best about 
cooperation is that farmers and ranchers and tribes and 
everybody come together, including fishermen, and agree on what 
they think is the best way to increase capacity at this point 
in time or the best way to relieve some of the key issues in 
drought. I think then their coming to the Federal Government 
asking for us to move faster and to support these efforts will 
give us more capabilities.
    It is not the Department of the Interior's job to look over 
your shoulder and say this other agency is going to be coming 
and asking for billions of dollars of relief, but I guarantee 
you that is what is going to happen in our agricultural 
communities. So a little bit of prevention up front to help 
with this, I think, would go a long way.
    Mr. Loranger, you talked about Seattle and Everett not 
having as serious a problem because of storage of rain water. 
Could you elaborate on that?
    Mr. Loranger. Yes, it was pretty clear early on that snow 
pack was not accumulating, and typically their reservoir 
management curves, they would let a lot of the winter rain go 
because they need capacity for the winter snow pack as it's 
released. And they also have responsibilities for maintaining 
minimal stream flows for fish downstream from the projects.
    So the nature of their management is such that the rain 
water was adequate to get them through this season. I'm not 
sure about their reservoir rule curves for this next year. It 
seems like in the State of Washington, even on the agricultural 
side, there's concern and it's a very tough situation. But what 
they really talk about is next year because we're looking at 
California. And we don't have the year to year series of 
droughts yet and what that means for carryover in the 
reservoirs.
    Thank you.
    Senator Cantwell. But we are likely to see that.
    Ms. Cody, did you have something you wanted to add about 
how we look at the cost investment issues now as it relates to 
helping the situation?
    Ms. Cody. I think you raise an interesting point, and as 
some people have proposed in the past, such storage would be a 
way to offset some of the costs in, say, crop insurance loss. 
I'm not either an agriculture expert on that, but we do have 
people at CRS that are experts in that that could help with 
that question and followup.
    Senator Cantwell. Okay.
    Senator Cantwell. What about some of these other innovative 
ideas that have been proposed through cooperation with local 
communities? Do you think we should support more of those at 
the Federal level?
    Ms. Cody. I do know CRS cannot make recommendations or 
propose solutions. We can outline the options.
    I'd say there are a lot of innovative options out there and 
that we've heard several of them today. I think it was John 
Keys who sat at this table many years ago and said water reuse 
is the last untapped river in the West.
    I think Mike points out that a lot of these questions on 
what's the best option comes down to the fundamental question 
of what is the Federal role in these, in the water supply. Does 
Congress want to take that on? Is it a Federal taxpayer 
responsibility for these projects or is it the collaboration 
approaches we see with local governments? That's a policy 
question for Congress.
    Senator Cantwell. But why wouldn't we follow that? I mean, 
we are not saying that the Department of the Interior isn't 
involved either way?
    Ms. Cody. Right, No, certainly they are.
    Senator Cantwell. I guess in this world of information and 
change where everything is becoming flatter, this is just one 
more example of where collaboration on the ground by people who 
do not usually agree about water.
    Ms. Cody. Right.
    Senator Cantwell. Agreeing about what the best next steps 
are.
    Ms. Cody. Right.
    Senator Cantwell. Then the Department aiding those projects 
to move forward whether it is in moving, their authority or in 
finance. This is a better way to go than saying, okay, we are 
going to come back to the Department of the Interior and look 
for a lot of top down solutions that might take another 10 
years. I think this is the new normal that we are going to have 
for at least several years.
    Ms. Cody. I see the point you're making and----
    Senator Cantwell. And so----
    Ms. Cody. There is a lot of collaboration going on, yes.
    Senator Cantwell. Well, if those are the results that we 
can get, like the 35,000 acre square----
    Ms. Cody. Right.
    Senator Cantwell. Feet saving just by doing some small 
things, let's figure out what we need to help the Department of 
the Interior to move more quickly on those kinds of projects so 
that they can help these communities who are making decisions 
together, which, again, I would think probably alleviate some 
of the legal battles that we have had in the past when people 
do not agree.
    Mr. Connor?
    Mr. Connor. Senator Cantwell, if I could just add.
    As I mentioned before there are specific Federal interests, 
particularly in the Yakima Basin, that we are involved in and 
the reason for ongoing investments. But I think the President's 
Climate Action Plan makes it clear there is an ongoing Federal 
role that needs to be played with respect to these challenges 
that are upcoming. And so the question is recognizing the 
limitation of resources. We just need to be as creative as 
possible and figure out how we're going to address that role 
because it is critical, and this is the new norm.
    Senator Cantwell. Well, I definitely think, so when you 
talk about that, the resources. I am saying we are going to see 
this one way or another.
    This is going to come back on to if it is in the form of, 
again, the agricultural losses which have a huge economic 
impact in Washington State. I am sure California is seeing the 
same thing.
    I thank the witnesses. I think this has been a good 
discussion, Madam Chair. I do think that we should continue to 
get some information from our national laboratories on what 
they are doing work on what is the long-term impact or at least 
the next 10 year projection. I think that might give us some 
indication of what we ought to be looking at as far as helping 
to alleviate some of the problems, at least in the next time 
period.
    But again, thank you for this hearing.
    The Chairman. Thank you, Senator Cantwell, and thank you to 
each of our witnesses here today. I think that this has been a 
good discussion. I think that this clearly highlights why it is 
important that we do a broader water bill.
    Initially the focus has been on California and the very 
dire situation there, but I think it is clear that the focus 
with legislation moving forward needs to be western-wide. So 
some of the discussion that we have heard today, I think, will 
help us as we formulate that.
    We have had a good discussion about the collaboration, the 
need for flexibility, the need for some streamlining. We have 
got some permitting issues. Obviously storage is a key 
consideration. The technologies that will allow us to have 
greater efficiencies, greater conservation, these are all going 
to be critical. But I clearly agree with you, Senator Cantwell, 
that as we are dealing with the here and the now when it comes 
to water and water access, we need to be looking long-term.
    Senator King was trying to give some historical context 
here--is this cyclical? Is this a thousand year event?
    Whether or not we have defined that, I think going forward 
we need to be trying to be as long-term in our view and our 
vision on this as possible because if this is the new normal 
going forward, then we have got a lot of work to be doing. We 
are willing to take up that work here in the Committee, again, 
working with many of you.
    We appreciate the perspectives that you have lent. Thank 
you, again, for your time this morning.
    With that, we stand adjourned.
    [Whereupon, at 12:06 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                   
                                   [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
